2311 Douglas Street

Q@OCKLE

Le g al Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-235

RICHARD JORDAN ET AL., PETITIONERS
VIRGINIA DEPARTMENT OF CORRECTIONS
AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of November, 2019, send
out from Omaha, NE | package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties

required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
MARK R. HERRING
Attorney General

VICTORIA N. PEARSON
Deputy Attorney
General

MARGARET HOEHL O’SHEA
Assistant Attorney
General

TOBY J. HEYTENS
Solicitor General
Counsel of Record

MICHELLE S. KALLEN
MARTINE CICCONI
Deputy Solicitors General

JESSICA MERRY SAMUELS
Assistant Solicitor General

ZACHARY R. GLUBIAK
John Marshall Fellow

OFFICE OF THE ATTORNEY GENERAL
202 North Ninth Street

Richmond, Virginia 23219

(804) 786-7240
solicitorgeneral@oag.state.va.us

Subscribed and sworn to before me this 7th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

Ge I Nota ’
scone 0 Clie Qudiwh, Chale

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38621

 
 

Attorneys for Petitioners

James William Craig Roderick & Solange MacArthur Justice Center
Counsel of Record 4400 S. Carrollton Ave.
New Orleans, LA 70119

jim.craig@macarthurjustice.org

Party name: Richard Jordan, et al.

504-620-2259

 
